D
R                                                          EMPLOYMENT AND TRAINING
A
F                                                          ADMINISTRATION
T




             Office of Inspector General—Office of Audit




                                                           


                                                           ETA CAN IMPROVE ITS PROCESS FOR
                                                           SHARING INFORMATION WITH STAKEHOLDERS
                                                           BY INCLUDING BEST PRACTICES FROM SWA
                                                           WIA EVALUATIONS


                                                               

                                                           





                                                                              Date Issued:    August 31, 2010
02-A12-345-67-890                                                          Report Number:    03-10-003-03-390
U.S. Department of Labor                                   August 2010
Office of Inspector General
Office of Audit
                                                           ETA CAN IMPROVE ITS PROCESS FOR
                                                           SHARING INFORMATION WITH

BRIEFLY…                                                   STAKEHOLDERS BY INCLUDING BEST
                                                           PRACTICES FROM SWA WIA EVALUATIONS
Highlights of Report Number 03-10-003-03-390, to the
Assistant Secretary for Employment and Training.           WHAT OIG FOUND

WHY READ THE REPORT                                        Most of the SWAs in our audit (six of eight) conducted
                                                           evaluations and used the results to promote the
The Office of Inspector General (OIG) conducted a          efficiency and effectiveness in their respective state
performance audit of the State Workforce Agencies’         workforce systems. Although there is no specific
(SWA) evaluations of their programs and activities         Federal requirement covering the frequency for
carried out under Title IB of the Workforce Investment     conducting evaluations, two SWAs did not perform any
Act (WIA) of 1998. WIA is designed to provide              evaluations in the prior 52-month period of our audit.
employment and training services to assist eligible        These SWAS may have missed opportunities to
individuals in finding and keeping meaningful              achieve increases in the effectiveness and efficiency of
employment and to help employers find the skilled          their employment and training programs. For those
workers they need to compete and succeed in                SWAs that did conduct evaluations, they did not always
business. DOL’s Employment and Training                    report the identified best practices in their respective
Administration (ETA) is responsible for administering      WIA Annual Reports to ETA. The 6 SWAs reported only
WIA at the Federal level and provides funding through      9 of the 38 evaluations they performed. SWA officials
grants to SWAs to operate the programs at the state        stated that ETA’s requirement was not clear as to which
and local level. WIA Section 136(e), Evaluation of State   evaluations had to be reported in the WIA Annual
Programs, requires SWAs to conduct ongoing                 Report.
evaluations of their Title IB workforce investment
activities for the purpose of promoting, establishing,     SWA officials were interested in evaluations conducted
implementing, and using methods for continuously           by other SWAs and how the results were used to
improving workforce investment activities. Programs        improve various aspects of their respective programs,
authorized under Title IB of WIA are the Adult,            but they had no readily available access to this
Dislocated Worker, and Youth programs.                     information. ETA did not have a process for analyzing
                                                           and sharing the results with other SWAs and
WHY OIG CONDUCTED THE AUDIT                                stakeholders. Without a mechanism for capturing,
                                                           analyzing, and sharing the SWA evaluations, SWAs are
The audit objective was to answer the following            missing the opportunity to learn of and use results from
question:                                                  other SWAs that might create significant efficiencies in
                                                           their own operations.
To what extent are SWAs conducting evaluations of
their workforce investment activities and using the        WHAT OIG RECOMMENDED
evaluation results to promote efficiency and
effectiveness in their respective state workforce          We made recommendations to the Assistant Secretary
investment systems?                                        for Employment and Training to clarify ETA’s
                                                           requirements to the SWAs for reporting evaluations in
The audit covered evaluations conducted during the         the SWA WIA Annual Report, develop and implement a
period July 2005 through January 2010, and ETA’s           system to analyze the SWA evaluation results and
policies and processes related to SWA evaluations as       identify best practices that could improve employment
of May 2010. We selected the following 8 SWAs from a       and training service delivery, and develop and
universe of 57: California, New Jersey, New York, Ohio,    implement a system so that these best practices can be
South Carolina, Texas, Utah, and West Virginia.            shared nationally with other SWAs.

READ THE FULL REPORT                                       The Assistant Secretary for Employment and Training
To view the report, including the scope,                   agreed with the report findings and recommendations.
methodology, and full agency response, go to:
http://www.oig.dol.gov/public/reports/oa/2010/03-10-
003-03-390.
    U.S. Department of Labor – Office of Inspector General 











                                 SWA Evaluations of WIA 

                             Report No. 03-10-003-03-390 

                                                             U.S. Department of Labor – Office of Inspector General 





Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective — To what extent are SWAs conducting evaluations of their
            workforce investment activities and using the results to
            promote the efficiency and effectiveness of their respective
            state workforce investment systems? ................................................... 4
         Most of the SWAs conducted evaluations, but ETA needs a process for
         sharing best practices from these evaluations with key stakeholders................... 4

         Finding 1 — Most of the SWAs in our audit conducted evaluations. .................... 4
         Finding 2 — ETA did not have a process for analyzing the evaluations and
                    sharing the results with other SWAs and stakeholders, and
                    SWAs did not always report their evaluation results to ETA. ............ 7

Exhibit
         Exhibit SWA Evaluations ................................................................................... 13

Appendices
         Appendix A Background ..................................................................................... 19
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 21
         Appendix C Acronyms and Abbreviations .......................................................... 25
         Appendix D ETA Response to Draft Report ....................................................... 27
         Appendix E Acknowledgements ......................................................................... 29




                                                                                                SWA Evaluations of WIA 

                                                                                            Report No. 03-10-003-03-390 

             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                          SWA Evaluations of WIA 

                                      Report No. 03-10-003-03-390 

                                            U.S. Department of Labor – Office of Inspector General 




U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




                         Assistant Inspector General’s Report


Jane Oates
Assistant Secretary for Employment and Training
Employment and Training Administration
200 Constitution Avenue, N.W
Washington, D.C. 20210
`
The U.S. Department of Labor (DOL), Office of Inspector General (OIG) conducted a
performance audit of the State Workforce Agencies’ (SWA) evaluations of their
programs and activities carried out under Title IB of the Workforce Investment Act (WIA)
of 1998.

WIA is designed to provide employment and training services to assist eligible
individuals in finding and keeping meaningful employment and to help employers find
the skilled workers they need to compete and succeed in business. DOL’s Employment
and Training Administration (ETA) is responsible for administering WIA at the Federal
level and provides funding through grants to SWAs to operate the programs at the state
and local level.

Programs authorized under Title IB of WIA are the Adult, Dislocated Worker, and Youth
programs. The Adult program provides employment and training activities for adults,
including low-income individuals and public-assistance recipients. The Dislocated
Worker program provides re-employment services and retraining assistance to
individuals permanently dislocated from their employment. The Youth program links
academic and occupational learning with youth development activities and is divided
into two categories — older youth (ages 19 to 21) and younger youth (ages 14 to 18).

WIA Section 136(e), Evaluation of State Programs, requires SWAs to conduct ongoing
evaluations of their Title IB workforce investment activities for the purpose of promoting,
establishing, implementing, and using methods for continuously improving workforce
investment activities. Section 136(e) also requires the SWA evaluations be coordinated,
to the maximum extent practicable, with ETA evaluations performed under Section 172.
In its Training and Employment Guidance Letter (TEGL) No. 14-00, ETA directed the
SWAs to report the evaluation activities in their required WIA Annual Reports. SWAs
were allowed to use funds reserved under WIA Section 134(a)(2)(B)(ii), Statewide
Activities, to conduct these evaluations.




                                                                            SWA Evaluations of WIA 

                                              1                         Report No. 03-10-003-03-390 

                                           U.S. Department of Labor – Office of Inspector General 




The audit objective was to answer the following question:

   To what extent are SWAs conducting evaluations of their workforce investment
   activities and using the evaluation results to promote efficiency and effectiveness in
   their respective state workforce investment systems?

The audit covered evaluations conducted during the period July 2005 through January
2010, and ETA’s policies and processes related to SWA evaluations as of May 2010.
We selected the following 8 SWAs from a universe of 57:

        California        New Jersey        New York              Ohio
        South Carolina    Texas             Utah                  West Virginia

We conducted interviews with ETA officials at its National Office in Washington, D.C. At
the SWAs, we interviewed officials responsible for the evaluations about the process
used to select and conduct the evaluations. We also reviewed the evaluation results,
supporting documentation, and costs for conducting the evaluations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Our objective, scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

Most of the SWAs in our audit (six of eight) conducted evaluations and used the results
to promote the efficiency and effectiveness in their respective state workforce systems;
however, ETA needs a process for analyzing and sharing the evaluations with key
stakeholders. Additionally, SWAs did not always send their evaluations to ETA.

SWAs in our audit that did not conduct evaluations may have missed opportunities to
achieve increases in the effectiveness and efficiency of their employment and training
programs. The six SWAs in our audit sample that conducted evaluations used the
results to promote efficiency and effectiveness in their respective state workforce
investment systems. ETA does not have a procedure for monitoring whether or not
SWAs conduct evaluations or a process for analyzing the evaluations and sharing them
with other SWAs and key stakeholders.

For example, the SWA in Texas performed an evaluation of an initiative that had started
in 2003, in which the goal was to re-employ laid-off workers within 10 weeks after they
file for unemployment insurance (UI). The SWA initiated integrated employment and
training services and contact with UI claimants after their layoffs. Subsequently, the
evaluation found that the SWA was able to increase the re-employment of laid-off
workers within 10 weeks from 26 percent to 57 percent and determined that over the

                                                                        SWA Evaluations of WIA 

                                            2                       Report No. 03-10-003-03-390 

                                             U.S. Department of Labor – Office of Inspector General 




first 5 years of the initiative, the reduction in benefit duration resulted in savings of
nearly $1 billion for its UI trust funds.

In another example, the SWA in Utah evaluated its initiative for implementing an
electronic payment card — instead of paper vouchers — for participants to obtain
authorized training services. The goals were to ensure obligations and expenditures
would be more closely aligned and improve customer service for both the participants
and vendors. The evaluation found that using the electronic payment cards reduced the
time between obligations and expenditures and enabled the SWA to report “real-time”
actual cost data. This allowed the SWA to draw down its federally-awarded funds
sooner than under the paper system.

Although there is no specific federal requirement covering the frequency for conducting
evaluations, two SWAs did not perform any evaluations in the prior 52-month period of
our audit. These SWAs may have missed opportunities to achieve similar increases in
the effectiveness and efficiency of their employment and training programs. Officials
from these SWAs told us they made improvements to their program but did not
document the results or issue an evaluation report.

The SWA officials were interested in evaluations conducted by other SWAs and how the
results were used to improve various aspects of their respective programs, but they had
no readily available access to this information. ETA did not have a process for analyzing
and sharing the results with other SWAs and stakeholders. Without a mechanism for
capturing, analyzing, and sharing the SWA evaluations, ETA is missing the opportunity
to leverage resources for its own required evaluation efforts by coordinating with SWAs
in areas that have a national impact on the employment and training system. In addition,
SWAs are missing the opportunity to learn of and use results from other SWAs that
might create significant efficiencies in their own operations.

Although the evaluations that the SWAs conducted enabled them to benefit from their
improvement efforts, the individual SWAs did not always report the identified best
practices in their respective WIA Annual Reports to ETA, and the evaluation information
was not made widely available to the SWA community as a whole. The 6 SWAs
reported only 9 of the 38 (24 percent) evaluations they performed that should have been
reported. SWA officials stated that ETA’s requirement was not clear as to which
evaluations had to be reported in the WIA Annual Report.

We made recommendations to the Assistant Secretary for Employment and Training to
clarify ETA’s requirements to the SWAs for reporting evaluations in the SWA WIA
Annual Report, develop and implement a system to analyze the SWA evaluation results
and identify best practices that could improve employment and training service delivery,
and develop and implement a system so that these best practices can be shared
nationally with other SWAs.




                                                                          SWA Evaluations of WIA 

                                               3                      Report No. 03-10-003-03-390 

                                           U.S. Department of Labor – Office of Inspector General 




ETA RESPONSE

In response to the draft report, the Assistant Secretary for Employment and Training
agreed that it is important to review SWA evaluation results and widely disseminate
those best practices and other findings that are based on rigorous research and
evaluation practices with the public workforce system. The response stated that ETA
program managers will continue to emphasize the importance of SWA-conducted
evaluations when training Federal staff on grant management in the use of the Core
Monitoring Guide. Additionally, ETA is in the process of reviewing and clearing an
updated version of TEGL No. 14-00, to clarify the information SWAs should submit
regarding evaluation studies of workforce investment activities as described in WIA
Section 136(e). Also, the response stated that ETA will develop a process to analyze
evaluation results so that it can improve delivery of services nationally and be a
proactive clearinghouse to the SWAs for best practices. Finally, the response stated
that ETA will share best practices, tools, and replicable models identified through SWA
evaluations based on rigorous research practices through ETA's online technical
assistance platform, www.Workforce30ne.org, and at appropriate ETA events. The
Assistant Secretary stated that ETA is exploring opportunities to improve the website's
functionality, such as the ability to more easily identify best practices and to provide
user feedback on tools and resources.

ETA’s written response to the draft report is provided in its entirety in Appendix D.

RESULTS AND FINDINGS

Objective — To what extent are SWAs conducting evaluations of their workforce
            investment activities and using the results to promote the efficiency
            and effectiveness of their respective state workforce investment
            systems?

       Most of the SWAs conducted evaluations, but ETA needs a process for
       sharing best practices from these evaluations with key stakeholders.

Six of the eight (75 percent) SWAs in our audit conducted evaluations and used the
results to promote efficiency and effectiveness in their respective state workforce
investment systems. However, ETA did not have a process for analyzing the
evaluations for best practices or a method of sharing the evaluations with the other
SWAs and stakeholders. Additionally, the SWAs did not always report evaluation results
in their WIA Annual Reports as instructed by ETA.

Finding 1 — Most of the SWAs in our audit conducted evaluations.

SWAs in our audit that did not conduct evaluations may have missed opportunities to
achieve increases in the effectiveness and efficiency of their employment and training
programs. The six SWAs in our audit that conducted evaluations used the results to
promote efficiency and effectiveness in their respective state workforce investment

                                                                        SWA Evaluations of WIA 

                                             4                      Report No. 03-10-003-03-390 

                                                    U.S. Department of Labor – Office of Inspector General 




systems. These SWAs used the evaluations to develop different approaches to
improving services in order to increase performance and efficiencies in their WIA
investment activities. Given the efficiencies achieved by the six SWAs that performed
evaluations, the two SWAs in our sample that did not perform evaluations may have
missed opportunities to achieve similar increases in the effectiveness and efficiency of
their employment and training programs. ETA does not have a procedure for monitoring
whether or not SWAs conduct evaluations or a process for analyzing the evaluations
and sharing them with other SWAs and stakeholders.

WIA, Section 136(e), Evaluation of State Programs, states that:

          The State, in coordination with local boards in the State, shall conduct ongoing
          evaluation studies of workforce investment activities carried out in the State
          under this subtitle in order to promote, establish, implement, and utilize methods
          for continuously improving the activities in order to achieve high-level
          performance within, and high-level outcomes from, the statewide workforce
          investment system.

Section 136(e) also requires the State to coordinate the evaluations, to the maximum
extent practicable, with the evaluations provided for by the Secretary under Section 172.
Funds for the evaluations are provided under WIA Section 134(a)(2)(B)(ii), Use of
Funds for Employment and Training Activities, Required Statewide Employment
Activities. Evaluations are one of several required statewide employment activities. WIA
and the implementing regulations1 allow SWA governors’ discretion and flexibility on the
amount of funds that can be used for the evaluations and how often and how they can
be conducted.

Of the eight SWAs sampled for our audit, six conducted evaluations during the period
from July 2005 through June 2009. The following table lists the SWAs and the number
of evaluations each conducted.

               Table 1- SWAs and Number of Evaluations Conducted

                    SWA                                     Number of Evaluations
                1. Texas                                             15 

                2. Ohio                                               9

                3. New York                                           5
                4. South Carolina                                     5
                5. California                                         3
                6. Utah                                               3
                7. New Jersey                                         0
                8. West Virginia                                      0
               Total 40


1
    Title 20 of the Code of Federal Regulations (20 CFR), Part 665.200

                                                                                 SWA Evaluations of WIA 

                                                     5                       Report No. 03-10-003-03-390 

                                            U.S. Department of Labor – Office of Inspector General 




The SWAs used the evaluation results to promote efficiency and effectiveness in their
respective state workforce investment systems. Specifically, the SWAs used the
evaluations to develop different approaches to improving services in order to increase
performance and efficiencies in their WIA investments. The SWAs conducted a variety
of evaluations that covered different areas of WIA such as youth, rapid response and
services for dislocated workers, delivery of benefits, organizational structure, and
demand job. See the Exhibit for a list of the evaluations and how the SWAs used the
evaluation results to identify costs savings, improve financial management, and
increase performance results. The following are examples of how SWAs used
evaluation results to improve their WIA program. (See Exhibit for complete list.)

   •   The SWA in Texas performed an evaluation, Claimant Re-employment within 10
       Weeks, of an initiative that had started in 2003, in which the goal was to re-
       employ laid-off workers within 10 weeks after they filed for UI payment. Texas
       integrated employment and training services and contact with UI claimants after
       their layoffs. The evaluation found that Texas was able to increase the re-
       employment of laid-off workers within 10 weeks from 26 percent to 57 percent.
       Texas also determined that over the first 5 years of the initiative, the reduction in
       benefit duration resulted in savings of nearly $1 billion for its UI trust funds.

   •   The SWA in Utah performed an evaluation, Employment and Training
       MasterCard (ETMC), of its initiative for implementing an electronic payment card
       — instead of paper vouchers — for participants to obtain authorized training
       services. The goals of implementing the ETMC card were to ensure obligations
       and expenditures would be more closely aligned and improve customer service
       for both the participants and vendors. The evaluation found that using the ETMC
       reduced the time between obligations and expenditures and enabled Utah to
       report “real-time” actual cost data. This allowed the Utah SWA to draw down its
       federally-awarded funds sooner than under the paper system.

   •   The SWA for Ohio conducted an evaluation, Temporary Assistance to Needy
       Families/WIA/Ohio Department of Youth Services Jobs Reentry Annual Program
       Report, of a youth ex-offender program created out of a partnership using funds
       from the Temporary Assistance to Needy Families (TANF) and WIA programs.
       This was a 3-year, multiple-phase program initially involving Ohio’s largest
       counties. The program’s intent was to increase employability and self sufficiency
       by providing timely and various types of services to youth ex-offenders in order to
       reduce their recidivism rates. Some of these services consisted of contact with
       youth ex-offenders before they were released from a correctional institution and
       follow-up contacts after employment. The program also involved establishing
       relationships with employers interested in hiring youth ex-offenders. Also, Ohio
       requested and received a waiver from ETA to use discretionary WIA funds
       returned from the counties for this youth program. The evaluation found that over
       the program’s 3-year period, approximately 700 youth were served, with a
       successful employment rate of 55 percent, an increase of 15 percent over the
       employment rate of youth not served by the program. The evaluation also found

                                                                         SWA Evaluations of WIA 

                                             6                       Report No. 03-10-003-03-390 

                                                U.S. Department of Labor – Office of Inspector General 




       vendors providing the services were able to meet WIA performance measures for
       7 of 10 goals. The evaluation results convinced local workforce investment areas,
       who in the past were reluctant to serve youth ex-offenders because of difficulty in
       meeting performance goals, to now serve them because it would not negatively
       impact their performance.

Although there is no specific federal requirement covering the frequency for conducting
evaluations, the SWAs in New Jersey and West Virginia did not perform any evaluations
in the prior 52-month period of our audit. These SWAs may have missed opportunities
to achieve similar increases in the effectiveness and efficiency of their employment and
training programs. Officials in West Virginia told us they used funds for statewide
activities to enhance their management information systems and perform monitoring
and oversight. They said that they used monitoring and oversight to improve the
program but did not document the results on how they accomplished this. Officials from
New Jersey told us they reviewed the results of the State’s integration of services
between its Department of Education and Department of Labor at the One-Stops and
performed an analysis of its labor market in the energy field. However, they did not
document the results or issue a report.

ETA was not aware of the extent of SWA evaluations because it did not have a
procedure for monitoring whether or not SWAs conducted evaluations and how the
results were used. ETA developed its Core Monitoring Guide to assist ETA regional
office staff with conducting monitoring reviews of SWA WIA activities. Incorporating
SWA evaluations into this guide would assist ETA in ensuring SWAs take the
opportunity to conduct evaluations.

Finding 2 — ETA did not have a process for analyzing the evaluations and
            sharing the results with other SWAs and stakeholders, and SWAs did
            not always report their evaluation results to ETA.

ETA did not have a process for analyzing evaluations or a method of sharing them with
the other SWAs and stakeholders. Additionally, the SWAs reported only 9 of the 382 (24
percent) evaluations they performed in their WIA Annual Reports. A contributing factor
was that SWA officials stated that ETA’s requirement for reporting the evaluations in
their WIA Annual Reports was not always clear on which evaluations it had to report.
Furthermore, although the SWA officials we worked directly with in doing our audit work
were interested in evaluations conducted by other SWAs and how the results were used
to improve various aspects of their programs, the SWAs had no access to this
information. As a result, ETA is missing the opportunity to save funds by leveraging
resources for its own evaluation efforts through coordinating with SWAs in areas that
have a national impact on the employment and training system. In addition, SWAs are
not provided the opportunity to hear about and use results from other SWAs that might
create significant efficiencies in their own state systems.

2
  The total number of evaluations conducted by the SWAs in our audit was 40; however, 2 evaluations
were not completed in time to be reported in the most recent WIA Annual Report which covered July 2008
through June 2009.

                                                                             SWA Evaluations of WIA 

                                                  7                      Report No. 03-10-003-03-390 

                                                 U.S. Department of Labor – Office of Inspector General 





ETA’s TEGL 14-00, Change 1, Guidance on the WIA Management Information and
Reporting System, and the WIA Annual Report: General Reporting Instructions and ETA
Form 9091, provides guidance to the SWAs for reporting evaluations in the narrative
section of the WIA Annual Report3. The guidance states the narrative portions should
include a description of state evaluations of workforce investment activities (if any)
required by WIA Section 136(d)(1), including:

    •   The questions the evaluation will/did address;
    •   A description of the evaluation's methodology; and
    •   Information about the timing of feedback and deliverables.

The TEGL guidance includes no other description of what entails an evaluation beyond
the description that is provided in WIA Section 136(e)4.

Despite the guidance in TEGL 14-00, of the six SWAs that conducted evaluations, two
did not report any evaluations at all, and the remaining four were not consistent in
reporting evaluations they actually performed. For example, Ohio performed nine
evaluations but reported only four.

The following table lists the number of evaluations the SWAs reported in their respective
WIA Annual Reports:

                      Table 2 - SWAs That Conducted Evaluations
                                and Number Reported
                                            Number of Evaluations 

                           SWA                     Reported 

                       1. Texas                       0

                       2. Ohio                        4

                       3. New York                    1

                       4. South Carolina              3

                       5. California                  1

                       6. Utah                        0

                          Total                       9


SWA officials stated that ETA’s guidance for reporting the evaluations in their WIA
Annual Reports was not always clear as to whether all evaluations were supposed to be
reported, or only some, or none. We agree that ETA needs to clarify its guidance based
on the lack of and inconsistencies found in SWAs reporting of its evaluations. In
addition, we found several SWAs did not have a process in place to ensure that staff


3
  The WIA Annual Report contains tables on various performance calculations, including the outcomes
and participation levels for the Youth, Adult, and Dislocated Workers programs. The WIA Annual Report
also contains a narrative section for discussion on workforce investment activities.
4
  See Finding 1 for a description of WIA Section 136(e).

                                                                              SWA Evaluations of WIA 

                                                  8                       Report No. 03-10-003-03-390 

                                          U.S. Department of Labor – Office of Inspector General 




responsible for preparing the WIA Annual Report was aware of evaluations conducted
by other staff within the same SWA.

ETA did not have a system in place to review and analyze the SWA evaluations in order
to identify best practices that could be useful to other SWAs, or to communicate and
share these best practices with SWAs. Officials at SWAs we visited were interested in
evaluations conducted by other SWAs and how the results were used to improve
various aspects of their programs. Also, several SWAs conducted evaluations of the
same area. For example, the SWAs for California and South Carolina conducted
evaluations related to training to meet the workforce projections for the nursing
occupation. These could be opportunities for ETA to leverage resources for its own
evaluation efforts by coordinating with SWAs in areas that have a national impact on the
employment and training system.

ETA officials told us that because of the recent emphasis placed on evaluations by the
Office of Management and Budget, they have made changes to their Office of Policy
Development and Research (OPDR). OPDR officials told us they currently are not
involved in SWA evaluations, but would be receptive to being the central point within
ETA for reviewing evaluations and identifying best practices that could be shared. ETA
explained they would have to determine if the evaluations followed sound research
practices in order to assess the validity of the best practices. We agreed that such an
assessment would be needed because WIA and the implementing regulations5 allow
SWA governors’ discretion and flexibility on how the evaluations can be conducted.
Officials from ETA’s Office of Workforce Investment told us they use various methods —
conferences, webinars, training — to communicate WIA issues to SWAs and WIA
stakeholders. However, they agreed that they do not have a process for identifying and
communicating best practices from SWA evaluations.


RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training:

1. Develop and implement procedures to ensure that SWAs conduct evaluations and
   when conducted, include them and best practice results in their WIA Annual Reports
   by clarifying the requirements in the TEGL.

2. Develop in ETA a process to analyze evaluation results so that it can improve
   delivery of services nationally and be a proactive clearinghouse to the SWAs for best
   practices.

3. Implement a forum, such as a website, where ETA and SWAs can easily access and
   share best practices described in the evaluations.


5
    20 CFR, Part 665.200

                                                                       SWA Evaluations of WIA 

                                           9                       Report No. 03-10-003-03-390 

                                           U.S. Department of Labor – Office of Inspector General 





We appreciate the cooperation and courtesies that ETA personnel extended to OIG
during this audit. OIG personnel who made major contributions to this report are listed in
Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




                                                                        SWA Evaluations of WIA 

                                            10                      Report No. 03-10-003-03-390 

            U.S. Department of Labor – Office of Inspector General 





Exhibit 





                                         SWA Evaluations of WIA 

             11                      Report No. 03-10-003-03-390 

             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK




                                          SWA Evaluations of WIA 

              12                      Report No. 03-10-003-03-390 

                                        U.S. Department of Labor – Office of Inspector General 




                                                                                     Exhibit
SWA Evaluations

                                                               Results Used
                                                                Improve      Increase
                                                   Cost        Financial   Performance
Evaluation Title/Date                             Savings     Management      Results
Texas
     Accomplishments and Outcomes of the Texas
     Workforce Development System and Final
                                                      X                              X
     Report on Destination 2010
 1. December 2009
     Accomplishments and Outcomes of the Texas
     Workforce System Evaluation 2005                 X                              X
 2. December 2005
     Accomplishments and Outcomes of the Texas
     Workforce System Evaluation 2006                 X                              X
 3. December 2006
     Accomplishments and Outcomes of the Texas
     Workforce System Evaluation 2007                 X                              X
 4. December 2007
     Accomplishments and Outcomes of the Texas
     Workforce System Evaluation 2008                 X                              X
 5. December 2008
     Automated Student and Adult Learner
     Follow-Up Project                                                               X
 6. 2005 Final Report
     Automated Student and Adult Learner
     Follow-Up Project                                                               X
 7. 2006 Final Report
     Automated Student and Adult Learner
     Follow-Up Project                                                               X
 8. 2007 Final Report
     Automated Student and Adult Learner
     Follow-Up Project                                                               X
 9. 2008 Final Report
     Rapid Re–employment Model II
     Documentation                                                                   X
10. December 2008
     Governor’s Competitiveness Council Report
                                                      XX                             X
11. July 2008




                                                                     SWA Evaluations of WIA 

                                         13                      Report No. 03-10-003-03-390 

                                           U.S. Department of Labor – Office of Inspector General 




SWA Evaluations
                                                                Results Used
                                                                 Improve       Increase
                                                   Cost          Financial   Performance
Evaluation Title/Date                             Savings      Management       Results
Texas Continued
     Training and Targeted Occupations Lists
                                                                                       X
12. July 2008.
     Claimant Re–employment within 10 Weeks
                                                      X                                X
13. April 2008
     Project Reintegration of Offenders Exit
     Cohort Longitudinal Study Program Year
                                                      X                                X
     (PY) 2003
14. 2006
     Supplemental Longitudinal Study 2006
     Labor Market Results for 2000-2001
     Texas Department of Criminal Justice             X                                X
     Project Reintegration of Offenders
15. Exit Chohorts PY 2002
Ohio
     Gold Standard Continuous Improvement
     Program                                            X                              X
 1. January 2008
     A Follow-up Impact Evaluation of Ohio’s
     WIA Program                                                                       X
 2. May 2007
     Ohio’s Rapid Response System
                                                      XX                               X
 3. September 2008
     TANF/WIA/ODYS Jobs Reentry Annual
                                                      X                                X
 4. Program Report
     State of Ohio WIA Employer Customer
     Satisfaction Annual Report for PYs 2005
                                                                                       X
     and 2006
 5. September 2006 and 2007
     An Outcome Evaluation of Ohio’s WIA
     Program 2002 and 2003                                                             X
 6. June 2007
     An Overview of Noteworthy Strategic
     Initiatives and Recommendations Related to
     the Improvement of Ohio's Workforce              XX                               X
     Development System
 7. October 2007
     Franklin County Center for Workforce
     Learning Technical Assistance Review             XX                               X
 8. May 2008
     Hamilton County Center for Workforce
     Learning Technical Assistance Review             XX                               X
 9. June 2007




                                                                        SWA Evaluations of WIA 

                                            14                      Report No. 03-10-003-03-390 

                                            U.S. Department of Labor – Office of Inspector General 




SWA Evaluations
                                                                 Results Used
                                                                Improve        Increase
                                                   Cost        Financial     Performance
Evaluation Title/Date                             Savings     Management        Results
New York SWA
    A Case Study of the Capital Region
                                                                                       X
1. December 2008
    New York State Apprenticeship Training
                                                      X                                X
2. Program Process Mapping Report
    New York States Clean Energy Industry
    Labor Market and Workforce Intelligence           X                                X
3. May 2009
    Building Skills in New York State
                                                      X                                X
4. December 2005 and October 2006
    Steel Valley Authority Toward a New York
    State Early Alert/Layoff Aversion Strategy        X                                X
5. August 2008
South Carolina SWA
    South Carolina State Workforce Investment
    Board Strategic Plan 2006                          X                               X
1.
    Local Workforce Investment Areas Local
    Board Standards State WIA Instructions
                                                       X                               X
    Number 07:04
2. January 2008
    South Carolina Workforce Nursing Summit
                                                                                       X
3. August 2006
    South Carolina One-Stop Certification Best
    Practices Report                                  XX                               X
4. August 2008
    Hiring, Retention and Training Employer’s
    Perspectives on Trade and Soft Skills in
                                                      X                                X
    South Carolina
5. January 2010
California SWA
    California One-Stop System Cost Study
    Report                                            XX
1. October 2007
    University of California Davis Final
    Evaluation of California’s Workforce
                                                       X
    Development System
2. November 2006
    California Nurse Workforce Initiative
                                                                                       X
3. November 2007






                                                                         SWA Evaluations of WIA 

                                             15                      Report No. 03-10-003-03-390 

                                        U.S. Department of Labor – Office of Inspector General 




SWA Evaluations
                                                             Results Used
                                                            Improve        Increase
                                               Cost        Financial     Performance
Evaluation Title/Date                         Savings     Management        Results
Utah
   Employment and Training MasterCard
                                                  XX                               X
1. October 2008
   Common Federal Administrative Compliance
   (TANF, Child-Care, and WIA)                     X
2. July 2006
   Training Simplification Review
                                                                                   X
3. March 2007










                                                                     SWA Evaluations of WIA 

                                         16                      Report No. 03-10-003-03-390 

               U.S. Department of Labor – Office of Inspector General 





Appendices 









                                            SWA Evaluations of WIA 

                17                      Report No. 03-10-003-03-390 

             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK




                                          SWA Evaluations of WIA 

              18                      Report No. 03-10-003-03-390 

                                             U.S. Department of Labor – Office of Inspector General 




                                                                                    Appendix A
Background

WIA of 1998 is designed to provide employment and training services to assist eligible
individuals in finding and qualifying for meaningful employment, and to help employers
find the skilled workers they need to compete and succeed in business. DOL’s ETA is
responsible for administering WIA at the Federal level and providing funding through
grants to SWAs to operate the programs at the state and local level.

Programs authorized under Title IB of WIA are the Adult, Dislocated Worker, and Youth
programs. WIA provides formula-based funding to SWA to design and operate these
training programs. The Adult program provides employment and training activities for
adults, including low-income individuals and public-assistance recipients. The
Dislocated Worker program provides re-employment services and retraining assistance
to individuals permanently dislocated from their employment. The Youth program is a
State-operated program which links academic and occupational learning with youth
development activities and is divided into two categories: older youth (ages 19 to 21)
and younger youth (ages 14 to 18).

The following table provides appropriated funding for the Adult, Dislocated Worker, and
Youth programs for Fiscal Years (FY) 2006 through 2009.


       Table: Funding for Adult, Dislocated Worker, and Youth Programs for FYs 2006-2009


Program           FY 2006            FY 2007             FY 2008               FY 2009
Adult             $ 857,079,000      $ 864,199,000       $ 849,101,000         $ 861,540,000

Dislocated        $ 1,337,553,000    $ 1,471,903,000     $ 1,446,189,000       $ 1,341,891,000
Worker
Youth             $ 940,500,000      $ 940,500,000       $ 924,069,000         $ 924,069,000
Total             $ 3,135,132,000    $ 3,276,602,000     $ 3,219,359,000       $ 3,127,500,000

WIA, Evaluation of State Programs, Section 136(e), provides that SWAs shall conduct
ongoing evaluations of their Title IB workforce investment activities:

   •   in coordination with local boards;

   •   for the purpose of promoting, establishing, implementing, and utilizing methods
       for continuously improving workforce investment activities,

   •   to achieve high-level performance and outcomes from the statewide workforce
       investment system; and




                                                                          SWA Evaluations of WIA 

                                              19                      Report No. 03-10-003-03-390 

                                                 U.S. Department of Labor – Office of Inspector General 




    •   to the maximum extent practicable, coordinate with the evaluations provided for
        by the Secretary under Section 1726.

The design of the evaluations shall include analysis of:

    • customer feedback; 

     

    • outcome measures in; and 

     

    • process measures in the statewide workforce investment system.

The SWA evaluations are listed under required statewide employment and training
activities in WIA7. To conduct evaluations, SWAs shall use funds reserved under WIA
Section 128(a)8. In its TEGL No. 14-00, ETA directed the SWAs to report the evaluation
activities, if any were conducted, in their required WIA Annual Reports (ETA Form
9091), which includes Adult, Dislocated Workers, and Youth program performance
data9. The WIA Annual Report contains tables on various performance calculations,
including the outcomes and participation levels for the Adult and Dislocated Workers
programs. According to The WIA Annual Report and ETA Form 9091 General Reporting
Instructions, the annual report must contain a narrative section that includes information
on the status of SWAs’ state evaluation activities. ETA requires the SWAs to submit the
WIA Annual Reports each October.




6
  WIA Section 172, Evaluations, requires for the purpose of improving the management and effectiveness
of programs and activities carried out under this title, the Secretary shall provide for the continuing
evaluation of the programs and activities.
7
  WIA Section 134(a)(2)(B)(ii), Use of Funds for Employment and Training Activities, Required Statewide
Employment Activities.
8
  WIA Section 134 (a)(1)(B)(i) Use of Funds for Employment and Training Activities, Statewide
Employment and Training Activities.
9
  WIA Subtitle E – Administration, Section 185(d).

                                                                              SWA Evaluations of WIA 

                                                  20                      Report No. 03-10-003-03-390 

                                           U.S. Department of Labor – Office of Inspector General 




                                                                                  Appendix B
Objective, Scope, Methodology, and Criteria

Objective

The audit objective was to answer the following question:

   To what extent are SWAs conducting evaluations of their workforce investment
   activities and using the evaluation results to promote efficiency and effectiveness in
   their respective state workforce investment systems?

Scope

The audit covered ETA and selected SWA practices, policies, and procedures as of
May 2010. We reviewed 40 evaluations conducted from July 2005 through January
2010, at 8 judgmentally selected SWAs from a universe of 57. We conducted fieldwork
at ETA’s National Office in Washington, D.C., and at the following SWAs:


    State             Workforce Agency                                  Location

                      Employment Development Department of
    California        California, Workforce Services Division           Sacramento
    New Jersey        Department of Labor Workforce Division            Trenton
    New York          New York State Department of Labor                Albany
                      Ohio Department of Job and Family
    Ohio              Services Columbus
    South Carolina    South Carolina Department of Commerce             Columbia
    Texas             Texas Workforce Commission                        Austin
    Utah              Utah Department of Workforce Services             Salt Lake City
    West Virginia     WorkForce West Virginia                           Charleston

We conducted this audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

Methodology

To accomplish the audit objective, we obtained an understanding of the evaluation
requirements in WIA and ETA regulations and policies. We conducted interviews with
officials of the following units at the ETA National Office in Washington, D.C. — Office of
Workforce Investment Adult Services, Office of Regional Management, Office of
Performance and Technology and OPDR. At the SWAs, we interviewed officials

                                                                        SWA Evaluations of WIA 

                                            21                      Report No. 03-10-003-03-390 

                                          U.S. Department of Labor – Office of Inspector General 




responsible for the evaluations about the processes and practices used to plan and
conduct the evaluations. Also at the SWAs, we reviewed the evaluation results and
supporting documentation.

The universe used in our audit consisted of all 57 SWAs. We stratified the universe into
four strata based on the amount of Title IB funding allotted to each SWA for PY 2009
(July 1, 2009, to June 30, 2010). The schedule provides details on the strata, range of
allotted funding, the number of SWAs in each stratum, and the SWAs selected for audit
from each stratum.


 Strata    Range of Funding Allotted to     Number of SWAs           SWA Selected For
                     SWAs                     in the Strata                 Audit
                                                                    California
      1.   $174,996,470 to $496,890,041               3
                                                                    Texas

      2.   $101,054,836 to $173,979,438               5             New York
                                                                    Ohio
                                                                    South Carolina
      3.    $45,935,249 to $96,302,400               12
                                                                    New Jersey
                                                                    West Virginia
      4.     $277,698 to $43,773,850                 37
                                                                    Utah

We randomly selected two SWAs from each stratum except for the stratum containing
three SWAs that had the largest amount of Title IB funding. For this stratum we selected
the SWA for California because it received the largest amount of funding, and Texas
because it reported no evaluations in its WIA Annual Report. The SWAs from the
remaining strata were selected using the Audit Control Language’s random number
generator. For each SWA selected, we tested whether or not the SWA conducted any
evaluations, and if so, if the SWA used the evaluation results to promote efficiency and
effectiveness in their respective workforce investment systems. The sample size was
not sufficient to be able to project the results of the audit to the universe.

In planning and performing our audit, we considered whether internal controls significant
to the audit were properly designed and placed in operation. This included reviewing
ETA’s and the SWAs’ policies and procedures related to SWA evaluations of WIA
programs. We confirmed our understanding of these controls and procedures through
interviews and documentation review and analysis. We evaluated internal controls used
by ETA for reasonable assurance that the SWA evaluations were conducted according
to federal requirements and guidance. We evaluated internal controls used by the
SWAs to conduct and report their evaluations in their WIA Annual Report. Our
consideration of ETA’s and the SWAs’ internal controls for administering the SWA
evaluations would not necessarily disclose all matters that might be significant
deficiencies. Because of inherent limitations in internal controls, misstatements or
noncompliance may nevertheless occur and not be detected.


                                                                       SWA Evaluations of WIA 

                                           22                      Report No. 03-10-003-03-390 

                                          U.S. Department of Labor – Office of Inspector General 




We obtained from ETA’s website a table containing allotments awarded to SWAs for
WIA Title IB programs and determined it to be sufficient and appropriate to provide a
reasonable basis for selecting the SWAs in our audit sample.

Criteria

WIA of 1998; Sections 128(a), 133(a), 134(a), 136(e), 172, and 185(d)

20 CFR, Part 652 et al. WIA; Final Rules August 11, 2000

TEGL 14-00, WIA Performance Reporting System, dated March 5, 2001

TEGL 14-00 Change 1, Guidance on WIA Management Information and Reporting
System, dated November 19, 2001

TEGL 14-00 Change 1, Attachment G, Revised WIA Title IB Annual Report (ETA 9091),

TEGL 14-00 Change 2, WIA Annual Report Narrative, dated September 25, 2008

TEGL 14-00 Change 3, WIA Annual Report Narrative, dated August 24, 2009

WIA Annual Report: General Reporting Instructions and ETA Form 9091, Revised 2009

WIA Annual Report: General Reporting Instructions and ETA Form 9091, Revised 2006




                                                                       SWA Evaluations of WIA 

                                           23                      Report No. 03-10-003-03-390 

             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                          SWA Evaluations of WIA 

              24                      Report No. 03-10-003-03-390 

                                     U.S. Department of Labor – Office of Inspector General 




                                                                            Appendix C
Acronyms and Abbreviations

CFR             Code of Federal Regulations

DOL             U.S. Department of Labor

ETA             Employment and Training Administration

ETMC            Employment and Training MasterCard

FY Fiscal             Year

OIG             Office of Inspector General

OPDR            Office of Policy Development and Research

PY Program               Year

SWA             State Workforce Agency

TANF            Temporary Assistance to Needy Families

TEGL            Training and Employment Guidance Letter

UI Unemploy               ment Insurance

WIA             Workforce Investment Act




                                                                  SWA Evaluations of WIA 

                                      25                      Report No. 03-10-003-03-390 

             U.S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





                                          SWA Evaluations of WIA 

              26                      Report No. 03-10-003-03-390 

                               U.S. Department of Labor – Office of Inspector General 




                                                                      Appendix D
ETA Response to Draft Report




                                                            SWA Evaluations of WIA 

                                27                      Report No. 03-10-003-03-390 

U.S. Department of Labor – Office of Inspector General 





                             SWA Evaluations of WIA 

 28                      Report No. 03-10-003-03-390 

                                          U.S. Department of Labor – Office of Inspector General 




                                                                                 Appendix E
Acknowledgements

Key contributors to this report were Michael Hill (Audit Director), Anthony Grice (Audit
Manager), Jen Varvel (Lead Auditor), and Auditors Theodore Lawson, David Halstead,
Goleda Sutton-Watson, and Janet Cucanato.




                                                                       SWA Evaluations of WIA 

                                           29                      Report No. 03-10-003-03-390 







    TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

    Online: http://www.oig.dol.gov/   hotlineform.htm
    Email: hotline@ oig.dol.gov

    Telephone:       1-800-347-3756
    202-693-6999

    Fax:      202-693-7020

    Address: Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
    Room            S-5506
             Washington, D.C. 20210




